<html>
<title> - TERRORISM: TWO YEARS AFTER 9/11, CONNECTING THE DOTS</title>
<body><pre>[Senate Hearing 108-921]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-921
 
                      TERRORISM: TWO YEARS AFTER 
                         9/11, CONNECTING THE DOTS

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON TERRORISM, TECHNOLOGY
                         AND HOMELAND SECURITY

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2003

                               __________

                          Serial No. J-108-39

                               __________

         Printed for the use of the Committee on the Judiciary


                     U.S. GOVERNMENT PRINTING OFFICE
93-083 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERB KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
             Bruce Artim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director
                                 ------                                

      Subcommittee on Terrorism, Technology and Homeland Security

                       JON KYL, Arizona, Chairman
ORRIN G. HATCH, Utah                 DIANNE FEINSTEIN, California
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
MIKE DeWINE, Ohio                    JOSEPH R. BIDEN, Jr., Delaware
JEFF SESSIONS, Alabama               HERB KOHL, Wisconsin
SAXBY CHAMBLISS, Georgia             JOHN EDWARDS, North Carolina
                Stephen Higgins, Majority Chief Counsel
                David Hantman, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     4
    prepared statement...........................................   119
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   144
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     6
Kyl, Hon. Jon, a U.S. Senator from the State of Arizona..........     1
    prepared statement...........................................   140

                               WITNESSES

Epstein, Matthew, Assistant Director, The Investigative Project, 
  Washington, D.C................................................    12
Henderson, Simon, Saudi Strategies, London, United Kingdom.......    10

                         QUESTIONS AND ANSWERS

Responses of Simon Henderson to questions submitted by Senator 
  Feinstein......................................................    25
Questions submitted by Senator Feinstein to Matthew Epstein 
  (Note: Responses to these questions were not available at the 
  time of printing.)

                       SUBMISSIONS FOR THE RECORD

American-Arab Anti-Discrimination Committee, Mary Rose Oakar, 
  President, Washington, D.C., statement and attachment..........    31
Council on American-Islamic Relations, Nihad Awad, Executive 
  Director, Washington, D.C., letter and attachments.............    37
Epstein, Matthew, Assistant Director, The Investigative Project, 
  Washington, D.C., statement and attachments....................    73
Henderson, Simon, Saudi Strategies, London, United Kingdom, 
  statement......................................................   125
Levitt, Matthew A., Senior Fellow in Terrorism Studies, 
  Washington Institute for Near East Policy, statement...........   147
Muslim-American Organization, Washington, D.C., statement........   157
Muslim Public Affairs Council, Washington, statement and 
  attachment.....................................................   159


          TERRORISM: TWO YEARS AFTER 9/11, CONNECTING THE DOTS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 10, 2003

                              United States Senate,
        Subcommittee on Terrorism, Technology and Homeland 
            Security, of the Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:33 a.m., in 
room SD-226, Dirksen Office Building, Hon. Jon Kyl, Chairman of 
the Subcommittee, presiding.
    Present: Senators Kyl, Feinstein, Schumer, and Durbin.

  OPENING STATEMENT OF HON. JON KYL, A U.S. SENATOR FROM THE 
                        STATE OF ARIZONA

    Chairman Kyl. I apologize to those of you who have been 
waiting and who will be inconvenienced by our delay. The Senate 
is in the middle of six votes. We are in the fifth vote right 
now.
    I think what I will do is proceed with my opening 
statement. I have checked with the ranking member's staff and 
that is acceptable to them, and then the Ranking Member will 
provide her opening statement when she is able to come back. At 
that time, I will also make some unanimous consent requests for 
inclusion in the record of various statements.
    Tomorrow, of course, marks the second anniversary of the 
worst, most cold-blooded attack on the United States since its 
founding, and the Subcommittee has set this hearing today to do 
its part to ensure that Americans are not attacked again. The 
defense of our people and our way of life at home requires that 
law enforcement agencies, Members of Congress, and government 
at large take an offensive approach to trace the roots of 
terror and terrorist financiers overseas and here in the U.S. 
homeland.
    As this Subcommittee heard in June from one expert witness, 
Al-Qaeda, murderous as it is, is but a symptom of an underlying 
malignancy which is Islamic extremism. To defeat this threat, 
we must improve our ability to connect the dots between 
terrorists and their supporters and sympathizers. We must 
understand their goals, their resources, their methods, just as 
well as they understand our system of freedoms and how to 
exploit them for their terrible purposes.
    Despite the commendable accomplishments of our law 
enforcement community and our intelligence services and the men 
and women in our military, our Government still has a great 
deal of work to do to secure our country from real and pressing 
terrorist threats.
    In earlier testimony and again this weekend from the New 
York FBI director, we have been told of the presence of active 
Al-Qaeda cells in 40 States, from cities like our Capital to 
the plains of the heartland. Increasingly, we are told how 
worried our officials are about what they continue to learn and 
what they have not yet uncovered.
    Today's hearing is the second in a series of hearings to 
investigate the roots of terrorist ideology, terrorist support 
networks and state sponsorship, especially the continued 
financial support from Saudi Arabia, estimated at billions of 
dollars per year for nearly 40 years, and what the U.S. 
Government can do to counter these terrorists and their 
supports.
    Members of this Subcommittee heard testimony earlier this 
summer by David Aufhauser, General Counsel to the Treasury 
Department, who called the Saudi regime the epicenter of 
terrorist financing. Special Agent John Pistole, Acting 
Assistant Director for Counterterrorism for the FBI who 
testified before Congress in late July, declared that the jury 
was still out on Saudi Arabia's promises to combat terrorist 
financing.
    Saudi Arabia, of course, has a deep historical and 
symbiotic relationship with the radical Islamic ideology of 
Wahhabism. The Saudis continue aggressively to export this 
intolerant and virulent form of Islam to Muslims across the 
globe, and to inculcate it in the major institutions of Islam 
worldwide.
    The New York Times, the Washington Post and others have 
recently reported on Wahhabi influence around the world, 
including in Iraq, where terrorists are carrying out ruthless 
attacks against U.S. forces attempting to rebuild that country 
and killing countless other innocent men and women.
    Equally disturbing is the presence of radical Islamist 
groups and cells here in the United States that often have the 
support financially, ideologically, and even diplomatically of 
the Saudi regime. Contrary to popular opinion, the voice of 
moderate Muslims is not often heard here in Washington and 
across America. Instead, a small group of organizations based 
in the U.S. with Saudi backing and support is well advanced in 
its four-decade effort to control Islam in America.
    From mosques, universities, community, even to our prisons, 
and even within our own military, moderate Muslims who love 
America and who want to be part of our great country are being 
forced out of these institutions. The Wahhabi-backed extremists 
then denounce critics of Wahhabism and other forms of Islamist 
extremism as being racists and bigots. This will not stand.
    Let us be very clear. We are not suggesting that Islam as a 
religion or its faithful believers are enemies of the United 
States, the West, or modernity. However, a growing body of 
accepted evidence and expert research demonstrates that the 
Wahhabi ideology that dominates, finances and animates many 
groups here in the United States indeed is antithetical to the 
values of tolerance, individualism, and freedom as we conceive 
these things.
    That ideology presents a clear and present danger to our 
Constitution and the principles of freedom enshrined by our 
Founding Fathers. Hence, it is a threat to the security of 
secular, liberal democracies such as the United States, and 
indeed is engaged on many levels in a violent struggle against 
them, from Manila to Morocco, from India to Iraq, from 
Jerusalem to Jakarta.
    Today's hearing will bring these and other important issues 
facing the United States in the war on terror to light. Our 
first witness today is Simon Henderson, a veteran journalist 
and respected expert on the Saudi royal family and related 
Middle East issues. He is currently with Saudi Strategies, in 
London. Mr. Henderson will expose a history of activity in the 
kingdom that has culminated in its current role in financing 
terror. He will outline a number of Saudi entities, some run by 
the government, that are involved in financing terror around 
the world.
    Next, we will hear from Matthew Epstein, a terrorism expert 
and lawyer specializing in terror finance and an assistant 
director with The Investigative Project here in Washington. Mr. 
Epstein will provide testimony on the network of American 
Muslim organizations, the majority of which are recipients of 
the very Saudi largess Mr. Henderson will outline. Mr. Epstein 
will highlight their long history of sympathy, coordination, 
and support for terrorist groups.
    As an example, he will focus on a group that we here on the 
Hill are very familiar with, namely the Council on American-
Islamic Relations, or CAIR. Members of the Council on American-
Islamic Relations were invited to testify today on this 
important anniversary, an important opportunity that this 
Subcommittee offered so that the organization could have its 
say about the serious allegations concerning its funding, 
ideology, leadership, and foreign and domestic networks. CAIR 
declined the Subcommittee's invitation. It will submit a 
statement for the record and I will ask unanimous consent that 
that statement will be received.
    I will reintroduce our witnesses when we call upon them to 
testify after opening statements by the ranking member, or 
allow the Ranking Member or other members of the Committee to 
present their statements when they would prefer to do so, and 
ask, as I said, for unanimous consent for various matters at 
that time.
    I think at this moment, what I will do is recess the 
Subcommittee and suggest to you that in about 10 or 12 minutes 
we should be able to resume and proceed with the conduct of the 
hearing. I thank you all again for your indulgence.
    [The Subcommittee stood adjourned from 11:40 a.m. to 11:54 
a.m.]
    Chairman Kyl. The Subcommittee will come back to order.
    Let me begin by asking unanimous consent for certain 
statements to be included in the record; first of all, a letter 
and testimony of Mr. Nihad Awad, the Executive Director of 
CAIR; second, the testimony of Matthew Levitt, a senior 
terrorism analyst at the Washington Institute for Near East 
Policy, and also a former FBI analyst; also, for the record, 
some additional materials submitted by the Muslim Public 
Affairs Council; and, finally, a statement by Senator Leahy. 
Without objection, those items will be included in the record.
    [The prepared statement of Senator Kyl appears as a 
submission for the record.]
    Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman, and to 
our witnesses and the people in the audience, let me add my 
apologies to yours. What I was saying when I said hello to Mr. 
Henderson and Mr. Epstein is one of the things we learn here is 
that we can't control our schedules. It has taken me almost 10 
years to learn how to relax and just kind of go with the flow 
because there is nothing you really can do about it. So our 
apologies.
    Both Senator Kyl and I have held a number of hearings; 
either he was the Chairman of the Subcommittee, as he is now, 
and I am ranking, or vice versa. We have seen firsthand how 
ill-prepared our Nation was for this kind of asymmetrical 
warfare. We had our visa people in, I think, at our first 
hearing, where 15 hijackers received visas, and remember the 
testimony of the State Department in that regard.
    In our Intelligence Committee--and it has subsequently been 
released--we have learned a lot about two hijackers that could 
have been picked up in Malaysia, but weren't. We have learned 
enough to connect the dots to know that 9/11 was no anomaly and 
that there are thousands of other terrorists, just like the 19 
hijackers, poised to strike at the United States and at 
American interests.
    The CIA Counterterrorism Center estimates that 70 to 
120,000 people trained in Afghanistan terrorist training camps 
between 1979 and 2001. Between 15 to 20,000 are believed to 
have been trained by Osama bin Laden. These people are now 
spread out all over the world and many are in this country now. 
The number of terrorist cells in this country is classified, so 
I can't share this with you, but if I did, you would be 
surprised. There is no question that the danger is real. Unless 
we find out who the enemy is and stop them before they strike, 
they will cause more suffering and death.
    We have passed a number of pieces of legislation--the USA 
PATRIOT that was aimed at solving some of the problems that led 
to missed opportunities with 9/11; the absence of 
interoperability of our databases, which was brought home both 
to Senator Kyl and me in our hearings; as well as providing the 
law enforcement and intelligence communities with strong 
investigative and prosecutorial powers.
    The PATRIOT Act is controversial. Certain elements of it 
will sunset after 5 years. It was drafted and negotiated 
quickly. Only six weeks elapsed between proposal and passage, 
and it was passed with the expectation that the executive 
branch would limit its new powers to the intended purpose of 
fighting terrorism.
    Secondly, we learned in this Subcommittee that security 
controls for anthrax, smallpox virus, ebola, and 33 other 
deadly biological agents were virtually non-existent, and where 
they were, they were very lax. No one, not the FBI, nor the 
Centers for Disease Control, knew how many people were working 
with these deadly agents in our own country. They didn't know 
how much they possessed or where these dangerous agents were 
being used and stored. Moreover, labs conducted no background 
screenings of workers who handled these dangerous agents.
    As a result, Senator Kyl and I introduced legislation to 
heighten security over and restrict possession of these 
pathogens. Ultimately, Congress incorporated many of these 
provisions into the comprehensive bioterrorism bill passed in 
June of 2002.
    Thirdly, Senator Kyl and I also coauthored the Enhanced 
Border Security and Visa Entry Reform Act of 2002, which sought 
to plug loopholes in our border security. It did many things, 
but a month ago two Pakistani nationals at Seattle-Tacoma 
International Airport paid cash for one-way tickets to John F. 
Kennedy International Airport. The customer agent at the desk 
checked a terrorist-related no-fly list and found both men's 
names on it. Local police then detained the two men and handed 
them over to the FBI.
    The new border security law requires the Federal Government 
to take concrete steps to restore integrity to the immigration 
and visa process. The law also requires all foreign nationals 
to be fingerprinted and, when appropriate, submit other 
biometric data to the State Department when applying for a 
visa.
    Finally, the border security law tightened two programs 
that were unregulated and ripe for abuse--the visa waiver 
program and the foreign student visa program. Additionally, the 
Government has decided to take 5,000 Customs agents and put 
them aboard commercial airliners, and the transit without visa 
program has been suspended. Of the 200,000 people that have 
used that program, it is my understanding that 2,000--their 
whereabouts are unknown at the present time. In other words, 
when they landed in a transit capacity somewhere in the United 
States, their ticket was to take them to another country and 
they disappeared in our country.
    We know that a terrorist could easily put a dirty bomb in a 
container. ``ABC Primetime'' on Thursday night will have a 
segment announcing that as a test, they shipped a suitcase with 
15 pounds of depleted uranium from Jakarta, to Singapore, to 
Hong Kong, to mainland China, and then finally into the port of 
Los Angeles, all without being detected. The suitcase was in a 
20-foot container filled with teak furniture.
    To solve this problem, last March Senator Kyl and I 
introduced the Antiterrorism and Port Security Act. My 
distinguished colleague, Senator Schumer, who is here, is a 
cosponsor of this bill and we are grateful for his support. I 
won't go into the bill. I will put the rest of my statement in 
the record, but I would like to just make a couple of comments.
    I have drawn some conclusions from connecting the dots. The 
first is that you cannot walk both sides of the street in the 
war on terror. The second is you can't fund schools that teach 
hate, you can't fund clerics who preach hate, and you can't 
support or give money to causes that support the culture or the 
individuals involved in terror.
    I also have come to the conclusion--and this is just 
personal with me--that jihad has taken a very ominous turn not 
only of killing any infidel, but with the ultimate goal of 
creating a union of fanatic Islamic states, ranging from the 
Philippines through Indonesia, through the subcontinent of 
Asia, into the Middle East. So I think we are going to be at 
this for a very long time indeed.
    I am just delighted to also join you, Senator, in welcoming 
our two witnesses today and look forward to their remarks.
    [The prepared statement of Senator Feinstein appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Senator Feinstein, and I did note 
that other witnesses had been invited, but had declined the 
invitation to testify, witnesses from CAIR.
    Ordinarily, the Chairman and Ranking Member would give 
their opening statements and we would turn to the witness 
panel, but there is one member of this panel who has been 
extraordinarily involved in all of our efforts. We have 
cosponsored legislation together and he has made great 
contributions to our effort here, and therefore I want to give 
Senator Schumer an opportunity also to make an opening 
statement.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Senator Kyl. First, I want to 
thank you. I have so much to say here, I will cut it short and 
ask unanimous consent that my statement be read into the 
record.
    Chairman Kyl. It will be, and I might note that I cut my 
statement in half.
    Senator Schumer. Second, I just want to thank you for your 
great leadership on this issue. I think that, in fact, the 
three of us here are probably the three Senators who have most 
cared about the issue of the spreading Wahhabi danger in the 
world and America, the complicity or the--it is not even 
complicity--the explicit cooperation of the Saudi regime with 
Wahhabi and the--
    Chairman Kyl. Excuse me. Could I also add Senator Specter 
to that list? He would want to be noted as one of us on this.
    Senator Schumer. Great. Let's say the four of us--Senator 
Specter is on the floor--and anyone else who wants to be added 
to the list. We need as much company as we can get in this 
fight. I thank you for your leadership in having this hearing.
    Before I begin my statement, I want to make one point 
crystal clear, and it can't be reiterated enough. Mainstream 
Islam is a peaceful religion that deserves the respect of all 
Americans. My family and I visited Spain just a month ago and 
we visited some of the mosques and some of the architecture 
from the Moorish culture, and it is amazing what a beautiful, 
peaceful culture it is, with the fountains and the tranquility 
and the place for contemplation. When you think about how a 
small group has tried to hijack this religion and make it into 
something that propagates terror and war and hatred, it is 
really a shame.
    Islam has a proud history. Many people who follow its 
beliefs here in the United States are hard-working citizens. 
But unfortunately, Mr. Chairman, there is mounting evidence 
that Saudi-sponsored groups are trying to hijack mainstream 
Islam here in the United States and in the world and replace it 
with an extremist form of Islam, referred to as Wahhabism.
    Wahhabism is known throughout the Muslim world for its 
puritanical and severe approach to the teachings of the Muslim 
prophet Mohammed. It preaches violence against non-believers or 
infidels, and those include not just Christians, Jews, Hindus, 
but also Muslims who don't adhere to the strict Wahhabi faith. 
It serves as the religious basis for Osama bin Laden and Al-
Qaeda.
    Experts agree that Saudi Arabia is the epicenter of 
Wahhabist belief and its extreme teachings, and Saudi Arabia 
has made every effort to export Wahhabism all over the world. 
But unfortunately there is mounting evidence that Saudi-
sponsored groups are doing that here in the United States, as 
well, in mosques, in schools, and even in prisons and the 
military, to sort of supplant, replace, and elbow aside 
mainstream Islam and replace it with an extremist form, 
Wahhabism.
    As we will hear today, in the 1960's and 1970's the Saudi 
royal family made a deal with the devil and offered to sponsor 
the teaching of Wahhabist clerics in exchange for their support 
of the royal family's rule. Wahhabi teachings include examples 
of Allah cursing Jews and Christians and turning some of them 
into apes and pigs, and warnings that Muslims must consider 
non-Muslims or infidels their enemy.
    One of the terms of the dirty deal between the Saudi royal 
family and its Wahhabi partners has been the export of 
Wahhabist beliefs as part of Saudi foreign policy, and 
prominent members of the Saudi royal family, including Prince 
Naif, Saudi Arabia's Interior Minister and anti-terror czar, 
have set up charities that funnel money toward the Wahhabi 
madras schools throughout the Middle East and Pakistan which 
teach and export the hate, making these areas hotbeds of anti-
American sentiment and extremism.
    Now, just remember, the man in charge of fighting terror in 
Saudi Arabia is a man who, number one, funds and exports 
Wahhabism in the schools that preach hatred. He said about 9/11 
that Zionists were responsible and that Saudi citizens could 
not have been involved in the attack, even though we know that 
15 of the 19 were Saudi citizens.
    After the bombing of Khobar Towers in 1998 that killed 19 
Americans, Naif single-handedly prevented the trial of 13 
Saudis indicted for the crime. This is the man who is the 
Interior Minister. This is not just, you know, some fellow on 
the street who might say something. This is the Interior 
Minister of Saudi Arabia.
    Even as I speak, he appears to be up to his old tricks, as 
reports indicate that Saudi officials for months have denied 
American agents access to a Saudi with knowledge of extensive 
plans to release poison gas into the New York City subway 
system.
    It is well known among American fighters of terrorism that 
once someone is in Saudi Arabia, particularly a Saudi citizen, 
you cannot question them. Our law enforcement is blocked. That 
is the government of Saudi Arabia, not some citizens who have 
gone awry, the government of Saudi Arabia.
    I wrote to Saudi Arabian Ambassador Prince Bandar in July 
calling for Naif's dismissal. Sadly, I was rudely dismissed. 
Earlier this week, I wrote to Secretary Powell asking him to 
make Naif's removal part of U.S. policy toward Saudi Arabia, 
and I eagerly await the Secretary's response.
    He is not the only one involved. There are indications, 
less direct proof, that Prince Sultan, the Saudi Defense 
Minister, may also be involved in activities similar to Naif's, 
since he has said of charities that send money abroad--now, it 
is said these are for humanitarian purposes, but in too many 
cases the humanitarian purposes are a cloak for terrorism, and 
so we have to be careful here.
    The money we are talking about, Mr. Chairman, is not small 
potatoes. Between 1975 and 1987, Saudi Arabia sent $48 billion 
overseas in development aid, second to the United States. And 
now what makes this even more alarming, and no doubt 
contributed to the events of 9/11, is the most disturbing news 
that the Wahhabism--I believe if there was no Wahhabism and no 
Saudi government, you could make a very good argument that 9/11 
wouldn't have happened. There might not even be an Al-Qaeda.
    What is now even more disturbing is that this Wahhabism is 
making inroads in the United States. Saudi Arabia boasts of 
directly supporting 18 mosques and schools across our country, 
including the Islamic Centers in Washington and New York. If 
Wahhabism is the state religion of Saudi Arabia and no other 
form of Islam is tolerated there, when they fund mosques here 
what do we think is going on?
    Experts whom we heard from at the previous hearing suggest 
the real number is higher, reaching into the hundreds, as 
intermediate organizations like the Saudi-sponsored World 
Assembly of Muslim Youth provide financial support to American 
mosques and schools. In exchange, there is a demand that these 
mosques and schools tow the Wahhabi line. Saudi textbooks, the 
ones that preach violence against infidels, can be found in 
some of these schools.
    And that is not all. Grass-roots political organizations 
that claim to act as the official voice of the American Muslim 
community here in Washington are also recipients of Saudi 
money.
    You, Mr. Chairman, invited people from the most famous of 
these groups, the Council on American-Islamic Relations. They 
have reportedly received financial support from Saudi 
organizations to build their $3.5 million headquarters. They 
say that in 2001 they released a survey saying that 69 percent 
of Muslims in America say it is, quote, ``absolutely 
fundamental or very important to have Wahhabi teachings at 
their mosques.''
    I don't believe that survey. They don't reflect the true 
feeling of the American Muslim community. I am close to many of 
the Muslim community in New York, so I can't believe those 
statistics, but it shows you what they want people to believe.
    So we have a problem here, and to make matters worse the 
prominent members of the council's current leadership whom you, 
Mr. Chairman, invited to the hearing today and who declined to 
testify also have intimate connections with Hamas. That is 
another terrorist group that has received funding from Saudi 
Arabia and supports in many ways the tenets of Wahhabism. I 
would like them to come here and explain. Maybe all of this is 
wrong, and we would like to hear their side of the story, but 
they said, no, they won't come.
    We have talked in previous hearings about how these Wahhabi 
groups have been given almost exclusive rights to hire clerics 
in the Federal Bureau of Prisons and in the U.S. military to 
select imams. I think our last hearing has helped start a 
movement against that happening. In the prisons in New York 
State where this happened, Muslims who wanted to practice Sunni 
or Shiite Muslim were not allowed to get their own preacher and 
some of them were actually physically assaulted for not wanting 
to be part of Wahhabism. That is not pluralism, that is not the 
American way. We should have people in the prisons doing that.
    So, Mr. Chairman, we have an important road to go in these 
hearings. I know this is not the final hearing. We are going to 
keep doing it, and I salute you. We have to do more, and I hope 
Secretary Powell and others will make it clear to the Saudi 
royal family that if it does not end its awful deal with the 
extreme Wahhabi clerics, it is going to end up ending its 
relationship with the United States. I pray we all act before 
it is too late.
    Chairman Kyl. Thank you very much, Senator Schumer.
    Senator Feinstein has another item.
    Audience Participant. Mr. Chairman--
    Chairman Kyl. Excuse me. We will recess the hearing until 
the police have restored order.
    Audience Participant. I would like to know why the 
Judiciary Committee doesn't investigate the judges, why the 
judges that Senator Feinstein has appointed--
    Chairman Kyl. If you do not take your seat and resume 
silence, then you will have to be removed from the room.
    Audience Participant. Mr. Chairman, my question is why 
don't you investigate the judges in this country, the 
corruption, and all around the world the Jewish mafia.
    Senator Feinstein. Mr. Chairman?
    Chairman Kyl. Senator Feinstein.
    Senator Feinstein. I would ask unanimous consent to put a 
statement in the record submitted by the American-Arab Anti-
Discrimination Committee, which has some concerns about the 
written testimony.
    Chairman Kyl. Without objection.
    Senator Feinstein. I would also like to state that we 
invited former Senator and Ambassador to Saudi Arabia, Wyche 
Fowler, to testify. He couldn't make it, given the short 
notice, but I know you would join me in requesting that he 
submit any testimony for the record he deems appropriate.
    Chairman Kyl. Absolutely. Thank you.
    Senator Feinstein. And may I ask that we hold the record 
open for one week so we could receive additional testimony?
    Chairman Kyl. Without objection.
    Well, let us get to our panel. We do have two prominent 
witnesses on our panel. Let me reintroduce them.
    Simon Henderson lives in London and he gets the prize for 
traveling the farthest distance today. I don't know what that 
is, but welcome, Mr. Henderson. He is an analyst of Saudi 
Arabia, operating through his consultancy, Saudi Strategies. 
Mr. Henderson is a former veteran journalist with the London 
Financial Times. He covered Tehran, the 1978 Iranian 
revolution, and the 1979 U.S. hostage crisis. In 1978, he was a 
correspondent for the BBC, in Pakistan, and also covered 
Afghanistan.
    Mr. Henderson has written a biography of Saddam Hussein, 
Instant Empire: Saddam Hussein's Ambition for Iraq. He also has 
written a widely-praised study of the Saudi royal family, After 
King Fahd: Succession in Saudi Arabia. He remains an associate 
of the Washington Institute for Near East Policy, and he has 
recently completed a 3-year term as a member of what we here 
would call a prestigious think tank, the Council of Chatham 
House, the Royal Institute of International Affairs. He also 
served on the executive Committee and the finance Committee of 
that organization.
    Mr. Matthew Epstein is the Assistant Director of Research 
for The Investigative Project, a counterterrorism research 
center with one of the largest non-governmental archives on 
militant Islamic activity. Mr. Epstein is an attorney and an 
expert on the sources and methods of terrorist financing, 
including Al-Qaeda, Hamas, and the Palestinian Islamic Jihad. 
He frequently serves as a terrorism expert for Fox News. Mr. 
Epstein last testified in March of 2003 before the House 
Committee on Financial Services' Subcommittee on Oversight and 
Investigations on Saudi financial sponsorship of Al-Qaeda via 
U.S. banks, corporations, and charities.
    Thank you, gentlemen, for being with us.
    Mr. Henderson.

STATEMENT OF SIMON HENDERSON, SAUDI STRATEGIES, LONDON, UNITED 
                            KINGDOM

    Mr. Henderson. Thank you, Mr. Chairman, distinguished 
members of the Subcommittee.
    The United States and other Western countries have usually 
looked to Saudi Arabia in terms of its role as an oil supplier. 
It has the largest oil reserves in the world and is the largest 
oil exporter in the world. Oil also gives the government of 
Saudi Arabia incredible wealth. This is important, but it is 
only half the story. Saudi Arabia is also a leader of the 
Muslim world, perhaps the leader, because of the fact that the 
pilgrimage cities of Mecca and Medina lie within its borders.
    Saudi Arabia's interests in the Islamic world contradict, 
to my mind, its long relationship with the United States. In 
order to maintain its leadership in the Islamic world, Saudi 
Arabia sends aid and builds mosques that spread its Wahhabi 
variant of Islam around the world. The money involved amounts 
to billions of dollars each year.
    Some of this money goes via official Saudi channels, some 
goes via what are claimed to be non-official channels, and some 
goes via Islamic charities linked to the Saudi government. Each 
of these has in the past been linked to Al-Qaeda and Islamic 
terrorism.
    In my written testimony, I describe the system. It 
stretches from pan-Islamic organizations such as the Islamic 
Development Bank, which Saudi Arabia effectively controls, to 
Saudi embassies across the world. Other organizations set up by 
the Saudi government include the Muslim World League and the 
World Association of Muslim Youth, and there are also charities 
such as the International Islamic Relief Organization and Al-
Haramain which receive money from individuals, as well as the 
Saudi government, supposedly for good works.
    Coincidentally, the Wall Street Journal this morning has a 
long investigative piece on page 1, column 1, about these 
activities telling the story of a Saudi diplomat in Berlin with 
links to 9/11 who has since returned home. The Saudi government 
denies the activities of this diplomat. The Wall Street Journal 
sought comment and was instead called by a PR consultant for 
the Saudis working here in Washington. Who knows? The man or 
one of his colleagues might be here today, as well.
    His comments, carried by the Wall Street Journal, were 
given on condition that neither the individual nor the company 
he worked for were identified. This type of denial is frankly 
unbelievable. The chief spokesman of Saudi Arabia--the chief 
denier, to my mind--is Adel al-Jubeir. I attached to the end of 
my testimony the transcript of an interview he gave to the BBC 
in mid-August.
    You might be interested to know, sir, that in this 
transcript he refers to the charges against Saudi Arabia as ``a 
lot of these is trying to connect the dots that don't exist.'' 
He had anticipated the name you gave to this hearing today.
    What is significant, to my mind, about the interview is 
that he even denies that six recently released British 
expatriates held on fabricated charges of causing explosions 
were tortured. I know they were tortured. British officials 
told me a long time ago that they had been tortured. The 
British officials also told me the bomb explosions for which 
these men had been charged were caused by Al-Qaeda or Al-Qaeda 
sympathizers in Saudi Arabia.
    Adel al-Jubeir doesn't try in this interview to try to spin 
his way out of this problem, but instead just issues a blanket 
denial, saying the men were really guilty and were simply 
pardoned. Mr. al-Jubeir's comments on these issues are, to my 
mind, unbelievable. He is either ignorant or telling lies. This 
fatally flaws the protestations of innocence on the other 
charges he is asked about--Saudi cooperation with the U.S. and 
Saudi funding of terrorism.
    While Al-Qaeda also represents a threat to the Saudi royal 
family, the Saudi government prefers to use compromise and co-
option to confrontation in dealing with this threat. This has 
the effect, perhaps even the intention, of redirecting Islamic 
terrorism against the United States and other countries.
    The links between the Saudi government and charities and 
terror groups were known as long ago as 1996, according to a 
CIA-produced intelligence document which the Wall Street 
Journal in another report on May 9 this year referred to. I 
have also personally written about being told by British 
officials that Osama bin Laden was being paid off by senior 
Saudi princes from 1995 or 1996 until indeed after 9/11.
    In recent days in London, from where I flew for this 
hearing, the top police official has recently warned of the 
high likelihood of suicide bombers, and rescue squads have 
trained to evacuate an underground train--what you would call a 
metro--that might have been attacked with biological or 
chemical weapons.
    As the example of Richard Reed, the shoe bomber, the 
British convert to Islam now in a U.S. prison, shows, Al-Qaeda 
can plan single attacks as well as the multiple attacks of 9/
11. Richard Reed was also a mercifully failed example of the 
shared threat that the U.S., Britain, and other democratic 
countries face. But none of us can afford to lower our guard, 
nor be blind to continued links between Saudi Arabia and 
Islamic terrorism.
    Thank you.
    [The prepared statement of Mr. Henderson appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Mr. Henderson.
    Mr. Epstein.

     STATEMENT OF MATTHEW EPSTEIN, ASSISTANT DIRECTOR, THE 
            INVESTIGATIVE PROJECT, WASHINGTON, D.C.

    Mr. Epstein. Mr. Chairman, Senator Feinstein, Senator 
Schumer, I would like to thank you for this opportunity to 
testify.
    Nearly 2 years to the day from the horrifying attacks of 
September 11, we must take a closer look at the organizations 
that claim to speak for the Muslim community in America and how 
they reached such positions of influence. Despite 
administration outreach, large sections of the institutional 
Islamic leadership in America do not support U.S. 
counterterrorism policy, denouncing virtually every terrorism 
indictment, detention, deportation, and investigation as 
politically or religiously motivated attacks on Islam.
    To give two quick examples, just recently a man named Abdul 
Halim Alashkar, who has been identified as a senior Hamas 
activist in the United States and is currently in detention for 
refusing to cooperate with a grand jury investigation into 
Hamas, has been put into custody, and this is the second time 
he has been put into custody. A press release by CAIR has 
described the investigation and detention of Alashkar, the 
first time in 1998, as ``politically-motivated investigation 
prompted by and in the service of a foreign government.''
    As a second example, there was a man arrested in south 
Florida, Sami al-Arian, who was identified as a senior 
Palestinian Islamic Jihad leader in the United States. A quote 
from the CAIR board chairman, Omar Ahmed, in response to the 
arrest: ``We are concerned that the government would bring 
charges after investigating an individual for many years 
without offering any evidence of criminal activity. This action 
could leave the impression that al-Arian's arrest is based on 
political considerations, not legitimate national security 
concerns.'' I would like to note there was a 122-page 
indictment for Sami al-Arian detailing the evidence against his 
activities.
    To be clear, I would like to state that militant Islamic 
fundamentalism is not synonymous with Islam the religion. The 
overwhelming majority of the world's more than 1 billion 
Muslims do not support violence or militancy. The 
radicalization of the Islamic political leadership in the 
United States has developed parallel to the radicalization of 
the Islamic leadership worldwide. This leadership promotes a 
conspiratorial view that Muslims in the United States are being 
persecuted on the basis of their religion and political beliefs 
and an acceptance that violence in the name of Islam is 
justified.
    While such leaders protest that they have condemned 
terrorism, and they have in the abstract, they refuse to 
specifically condemn Islamist terrorist groups and leaders by 
name or acknowledge responsibility for their acts of terror.
    On that brief note, regarding the submission of the 
American-Arab Anti-Discrimination Committee, I would like to 
note that in my testimony I point out that one of their 
spokesmen, a man named Hussein Ibish, as I quoted in my 
testimony, stated during an interview with Geraldo Rivera--
Geraldo asked, ``How do you stand in Hizbollah and Hamas? Do 
you condemn them?'' His response was, ``It is not up to me to 
condemn people.'' Geraldo replies, ``But I want to know. How do 
you feel about them?'' And the response is, ``No. I think 
Hizbollah fought a very good war against the Israelis.'' 
Noticeably absent is any sort of condemnation against 
Hizbollah.
    In response to my quoting of Mr. Ibish, the ADC has put out 
a statement saying ``Although Mr. Epstein disingenuously frames 
the quotation he cites from Ibish's interview with Geraldo in 
terms of killing 241 Americans, the subject was, in fact, never 
raised in that broadcast.'' Noticeably absent from the ADC's 
press release is a condemnation of Hizbollah.
    Although the high visibility of such individuals and 
organizations suggests broad leadership and significant 
followings in the United States, by many accounts they draw 
support from far fewer American Muslims than they claim fall 
under their leadership.
    Unfortunately, however, militant Islamists command a 
disproportionate share of media and political attention in the 
United States as a result of substantial funding received from 
wealthy Persian Gulf benefactors, led by Saudi Arabia and their 
Wahhabi brand of Islam.
    With deep pocketbooks and religious conviction, the Saudi 
Wahhabists have bankrolled a series of Islamic institutions in 
the United States that actively seek to undermine U.S. 
counterterrorism policy at home and abroad. In the United 
States, the Saudi Wahhabis regularly subsidize the 
organizations and individuals adhering to military ideology 
espoused by the Muslim Brotherhood and its murderous offshoots 
Hamas, the Palestinian Islamic Jihad, and Al-Qaeda, all 
designated terrorist organizations.
    As my colleague Matthew Levitt pointed out in his testimony 
which was submitted for the record, several of these U.S.-based 
organizations have recently been shuttered and many of their 
leaders indicted, including the Holy Land Foundation, 
Benevolence International Foundation, and the Islamic Concern 
Project run by Sami al-Arian.
    Saudi largess has similarly been bestowed upon the Council 
on American-Islamic Relations, or CAIR, a U.S.-based 
organization purporting to promote a positive image of Islam 
and Muslims in America and empower the Muslim community in 
America.
    However, in supporting claims of religious discrimination, 
CAIR and its leadership has managed to disguise its true agenda 
of supporting militant Islam and protecting the operations of 
radical groups supporting terrorism.
    A careful review reveals that CAIR was a creation of the 
Hamas group in the United States. CAIR leaders have been heard 
expressing their support for Hamas both in public and on FBI 
surveillance taps. On that note, I would like to point out that 
in 1993 the FBI surveiled Hamas meetings in the United States.
    Quoting one of the leaders from the tapes, as the FBI 
notes, Omar Ahmed, who is one of the heads of CAIR, stated at 
that meeting that was recorded by the FBI, ``We, the Islamic 
Association of Palestine, cannot as an American organization 
say we represent Samah,'' which is Hamas backwards. ``Can we go 
to Congressmen and tell them I am Omar Yayha, Chairman of the 
union, Islamic Association of Palestine. Yasser Arafat does not 
represent me, but Ahmed Yasin does?'' That is Sheikh Ahmad 
Yassin, the head of Hamas, in his own words.
    CAIR officers and employees have been recently indicted on 
terrorism-related charges across the country. CAIR routinely 
questions the motives behind U.S. counterterrorism policy and 
law enforcement, as pointed out earlier. CAIR has received 
hundreds of thousands of dollars from Saudi individuals and 
organizations, including the World Assembly of Muslim Youth; 
Prince Alwaleed bin Talal; the International Islamic Relief 
Organization, which was based in the United States, a Saudi 
organization; and the Islamic Development Bank.
    Several other U.S.-based organizations also share CAIR's 
militant ideology and Persian Gulf support. Organizations such 
as the Islamic Society of North America, the American Muslim 
Council, the International Institute of Islamic Thought, and 
Mercy International share overlapping agendas and financial 
sponsors.
    The rise of militant Islamic leadership in the United 
States requires particular attention if we are to succeed in 
the war on terror. While the attacks of September 11 were 
executed by Al-Qaeda, it is the bastians of militant Islam that 
provide the recruits for tomorrow's Mohammed Attas and 
political cover to conceal their operations.
    In this battle, we must distinguish between the militant 
Islamic leaders and the vast majority of Muslims in the United 
States and around the world who do not support their violent 
agenda. In preventing future attacks on American soil, we must 
actively drain the pools from which Islamist terrorist 
organizations recruit and confront the financial sponsors that 
create them.
    Thank you.
    [The prepared statement of Mr. Epstein appears as a 
submission for the record.]
    Chairman Kyl. Thank you, Mr. Epstein, for that testimony.
    Let me begin by asking each of you a couple of questions 
and then we will proceed in turn.
    Senator Durbin, if you would like to make any kind of 
comments in connection with your questions, feel free to take 
the time to do that.
    Let me ask you, Mr. Henderson, since you have a great deal 
of expertise with respect to Saudi Arabia--and reference has 
been made to the walking of both sides of the street, in 
effect, by leaders of Saudi Arabia--how would you describe the 
tensions in the royal family which hamper cooperation between 
the Saudi government and the United States?
    Mr. Henderson. Sir, my understanding of that is that the 
principal obstacle these days is Prince Naif, the man whom your 
colleague referred to in his comments. Prince Naif is the 
Interior Minister. He is the chief antiterrorism man. He is in 
charge of security. He is a full brother of King Fahd. He is an 
immensely powerful man.
    Immediately after 9/11, I understand, or I have learned 
that the Saudi Arabian monetary agency was prepared to hand 
over to the United States authorities financial information 
about Saudi individuals, but Naif stopped that. Naif is also, I 
suspect, also an obstacle to the agreement which was recently 
announced about a joint task force whereby FBI and other U.S. 
Federal agents would be able to be in Riyadh to investigate 
what was going on there amongst information seized during 
recent raids against Al-Qaeda cells.
    The trouble with that agreement is that I understand it was 
based on a telephone conversation between President Bush and 
Crown Prince Abdullah--because of Kind Fahd's ill health, the 
de facto leader of Saudi Arabia. Frankly, that agreement isn't 
worth anything unless Prince Naif signs into it. The past 
record would be that he will sign into it slowly and partially, 
at best.
    The background to that is that Prince Naif, along with some 
of his other full brothers, don't want Crown Prince Abdullah to 
become king and are prepared to be obstacles against him 
becoming king. So such power games within Saudi Arabia actually 
handicap U.S.-Saudi investigations of terrorism.
    Chairman Kyl. Can you also provide us with information 
about the kind of compromises that the Saudi royal family has 
made with Al-Qaeda, if, in fact, such compromises have been 
made?
    Mr. Henderson. I was at first astonished when I learned 
that compromises had been made. I think the first report that I 
saw was in U.S. News and World Report here in this country, 
which referred to payoffs by senior Saudi princes to Osama bin 
Laden following the 1995 bombing in Riyadh of a Saudi national 
guard facility in which several American advisors were killed.
    I followed that story up in London with British officials 
and they confirmed it to me. They confirmed the identify of the 
senior Saudi princes involved, and it was pact with the devil 
that the Saudis had decided that they would pay off bin Laden 
so that he caused trouble elsewhere. The elsewhere was 
Tanzania, Kenya, the USS Cole, and finally 9/11, New York City 
and Washington.
    Chairman Kyl. Mr. Epstein, the Saudi groups that you 
identified frequently say that they are anti-terrorist. You 
acknowledge that point. Do you know how CAIR and other groups 
that you discussed, like the AMC and ISNA, reacted to the 
freezing of the Islamic charities here in the United States, 
like Holy Land Foundation, Benevolence International, and 
Global Relief?
    Mr. Epstein. Without exception, the organizations that you 
have named have never applauded a single freezing of assets, 
including Holy Land Foundation, Benevolence International, or 
Global Relief, or afforded any form of legitimacy on the 
government action substantiating what the government has put 
forth as significant evidence.
    For example, CAIR Director Nihad Awad, speaking at an event 
at Johns Hopkins recently, spoke about a charity that was shut 
down, Benevolence International. The government had put forth 
thousands of pages of evidence demonstrating how Benevolence 
International was an Al-Qaeda front.
    Nihad Awad--his exact statement is in my testimony--likened 
it to the American Red Cross, that you can't expect that every 
organization will know where every dollar goes, and so on and 
so forth. But we have never seen support from these 
organizations saying, yes, this organization supports 
terrorism; it supports Islamic terrorism, Al-Qaeda, Hamas, 
Hizbollah, Islamic Jihad. We either see silence or forms of 
questioning saying, you know, it is suspicious, politically-
motivated attacks.
    Chairman Kyl. Thank you.
    Senator Feinstein.
    Senator Feinstein. Thank you, Mr. Chairman.
    One question for Mr. Henderson and one for you, Mr. 
Epstein. While Al-Qaeda leaders had access to operatives from 
more than 80 nationalities in recruiting the 9/11 hijackers, 
they chose to recruit 15 Saudis. Yesterday, a New York Times 
story offered one explanation and that paper reported that, 
according to a Saudi official, Osama bin Laden told a top Al-
Qaeda operative to recruit Saudis for 9/11 in an effort to 
further strain relations between the United States and the 
kingdom. The Saudi official says he obtained this information 
from U.S. intelligence sources.
    Under this theory, Osama bin Laden shrewdly sought to 
weaken the Saudi-American alliance by deliberately choosing 
Saudis to be the foot soldiers of a hijacking operation, even 
though their teams were led by an Egyptian, Mohammed Atta, and 
other key leaders were from Lebanon and the United Arab 
Emirates.
    What do you think of this theory?
    Mr. Henderson. I think it is just that; I think it is a 
theory rather than fact. I read the story in the New York Times 
yesterday. As a journalist, I was frankly incredulous that the 
Saudi official was not identified in any way, whether he was 
senior, junior, resident or non-resident.
    I frankly believe the explanation which was given later in 
the story that the principal reason that Saudis were chosen by 
Osama bin Laden was that it was easier for Saudis to get visas 
to the United States. This is a subject which you are already 
familiar with, I know, and there have been accounts in the 
media of people who weren't able to get visas to the United 
States, so didn't have the opportunity of learning to fly and 
kill themselves.
    I think a second reason was that Osama bin Laden felt more 
confident with other Saudis. Al-Qaeda is essentially a Saudi 
and Egyptian organization, but led by Osama bin Laden, and I 
find it more credible that he went for Saudis because he could 
understand Saudis better than other nationalities.
    Senator Feinstein. Thank you. Now, both you and Senator 
Schumer have spoken about the Interior Minister for Saudi 
Arabia, and there is a lot of open-source information about 
him, as you know. The belief is that he is the person that 
prevented the trial of the 13 Saudis indicted for killing 19 
Americans in the Khobar Towers bombing. He has refused to turn 
them over to the United States.
    He is also the person last November who told a Saudi 
newspaper that Zionists were responsible for the 9/11 attacks, 
which to me seems to be a very irresponsible statement. I 
gather when the former Director of the FBI went to Saudi 
Arabia, according to recent articles, he wouldn't meet with 
him, but had a very low-level individual meet with him on the 
Khobar Towers bombing.
    I am puzzled as to why the Saudi government would keep him 
Interior Minister with the record that has been popping all 
over a lot of open-source documents and, to the best of my 
knowledge, have never really been refuted.
    Mr. Henderson. It is a good question, and some of the 
information in the public record about Prince Naif is there 
because I wrote it. Prince Naif was also the character who was 
responsible for arresting the six British expatriates to which 
I referred in my testimony to charging them on false charges 
that they had caused bomb explosions, and it was his men who 
tortured these people. Prince Naif was also the person who 
delayed any diplomatic deal on these men so that they could be 
released. He is an awkward character.
    It is not, though, within the power of Crown Prince 
Abdullah to get rid of Prince Naif. Prince Naif is one of the 
most important and strong people in Saudi Arabia. The usual 
nomenclature for the Saudi elite is that King Fahd is number 
one. Unfortunately, he is in bad health, so it is not a really 
accurate reflection of his current power. Number two is Crown 
Prince Abdullah. Number three is Prince Sultan, the Defense 
Minister, and indeed the father of Prince Bandar, the 
ambassador here. And number four is Prince Naif.
    Prince Naif controls not only the police, but also the 
coast guard, the customs officials, the security officials at 
the airport. He also controls the mutawah, the religious 
police. He has been Interior Minister for many, many years. He 
is just too powerful. He cannot be gotten rid of.
    Senator Feinstein. Well, I think that is very interesting 
because I don't know how you can have a credible interior 
minister and have him be allied with a country when they are 
making claims as he made about the 9/11 incident.
    Mr. Epstein, I would like to ask you about a man, Yassin 
Qadi, Q-a-d-i. He is a Saudi citizen who was named a specially 
designated global terrorist by the Secretary of the Treasury on 
October 12, 2001. He was also a trustee of a charity called 
Mufawa.
    According to a government statement, accompanying the 
designation, Mufawa--and I am quoting--``is an Al-Qaeda front 
that receives funding from wealthy Saudi businessmen. Blessed 
Relief is the English translation. Saudi businessmen have been 
transferring millions of dollars to bin Laden through Blessed 
Relief,'' end quote.
    Then, according to a New York Times article on October 13, 
2001, this same gentleman was said to be a major investor and 
director of Global Diamond Resources, a diamond exploration 
company based in San Diego. Last September, Valentin 
Roschacher, the Attorney General of Switzerland, was reported 
as saying that the consensus of officials in all major banking 
states was that Al-Qaeda had protected most of its assets by 
shifting from cash to diamonds and gold before the September 11 
attacks. Roschacher said that this enabled them to still have 
enough money to carry out other attacks.
    Can you provide any insight into this, whether that has 
credibility that assets were transferred, anything about Mr. 
Qadi that might be useful?
    Mr. Epstein. I can tell you that Mr. Qadi by many accounts 
has substantial business and financial holdings in the United 
States--the diamond company in San Diego, as you mentioned. A 
little under a year ago, there was a software company in Boston 
named PTech that was raided by JTTD because Qadi was a major 
investor. That was a software company selling software to the 
U.S. Government.
    Most recently, there was a bank in New Jersey called BMI 
which in government documents shows that Qadi was one of the 
financiers of this entity. There is actually a hearing tomorrow 
here in Virginia for the former president of BMI. His name is 
Soliman Biheiri. He has been indicted most recently, and in the 
affidavit to the indictment it explains how they are looking at 
Qadi and BMI as a major source of funding for Al-Qaeda and 
Hamas.
    One of the most disturbing elements along the lines of 
these hearings today is in other government documents we have 
seen that one of the biggest funders for BMI which is currently 
under investigation by these documents is the International 
Islamic Relief Organization, the Saudi charity based here in 
Virginia. We have also seen that large amounts of money, to the 
order of at least $400,000 for the International Islamic Relief 
Organization, came through the Saudi embassy.
    This was an investigation that was started by the FBI in 
1997 and continues today. IIRO's offices were raided originally 
in 1997 and most recently again in March of 2002, and they are 
currently involved in an Al-Qaeda and Hamas investigation here 
in the United States.
    On the issue of diamonds, Douglas Farah, a Washington Post 
report, has an outcoming book on the use of diamonds by Al-
Qaeda, also, and we have seen a lot of evidence that it is the 
international diamond trade that has allowed Al-Qaeda to 
reconstitute their financial operations.
    So although I have not seen any specific information on 
this company in San Diego connecting them in any way to 
terrorism financing, except for the fact that Qadi, a 
designated financier, was one of their investors and owners, I 
haven't seen that they were involved in that trade or Al-Qaeda 
financing.
    Senator Feinstein. Thank you. Thank you, Mr. Chairman.
    Chairman Kyl. Senator Schumer.
    Senator Schumer. Thank you, Mr. Chairman. I want to thank 
both of our witnesses for their testimony. I have some specific 
questions. The first is to Mr. Henderson.
    In your testimony, you point out that the Islamic 
Development Bank has given large sums of money to CAIR, which 
we know has ties to terrorism. You also say that the IDB even 
funded the Al-Noor school in my home borough of Brooklyn, where 
students were interviewed after 9/11 and expressed their 
support for the fighters of Islam and said they wanted to 
follow in their footsteps.
    Is the IDB still supporting the Al-Noor school, and do you 
have any more information on its activities and support for 
Wahhabism or terrorism?
    Mr. Henderson. Sir, the information that I put in my 
testimony regarding the school in New York City was by virtue 
of reading the New York Times. The IDB is a body which is 
headquartered in Saudi Arabia. Saudi Arabia has the largest 
shareholding in it. There are, I believe, 54 Islamic nations 
which are all shareholders of it. The Saudi share-holding is 
27.33 percent. The next largest share-holding, I believe, is 
just over 10 percent. Most of the share-holdings, therefore, 
are of trivial amounts of 1 percent and less. It is essentially 
a Saudi-controlled organization.
    I think the attitude of many of the countries which are 
member states of the Islamic Development Bank is that this is a 
convenient way of being given aid from Saudi Arabia. Kazahkstan 
has recently played host to an IDB meeting and its president 
referred to a loan they had just received from the IDB. I 
suspect Kazahkstan would make sure that there is no Wahhabi 
conditioning to such a loan. I am less certain that smaller 
countries with less strong leaders can make the same sort of 
conditioning.
    Senator Schumer. How about the school?
    Mr. Henderson. I have no knowledge whether there is more 
money going into the school or any other schools, but I will 
look into it.
    Senator Schumer. Next question for both Mr. Henderson and 
Mr. Epstein: There was a report, in fact, on NBC's ``Today 
Show'' just this morning about a gentleman named Gerald Posner, 
who has written a book about September 11 called Why America 
Slept. Mr. Posner says that Prince Turki al-Faisal, the Saudi 
Ambassador to Britain, has given up to $2 billion to Osama bin 
Laden to keep him in Afghanistan and from coming to Saudi 
Arabia. Posner also indicated that a high-level Al-Qaeda 
operative recently interviewed by American agents named several 
high-level Saudi officials, not citizens, officials, as 
supporters of Al-Qaeda.
    What can you tell us about Prince Turki al-Faisal, his 
support for bin Laden and Al-Qaeda, and do you have any 
knowledge of others whom the high-level Al-Qaeda operative 
might be referring to in terms of other high-level Saudi 
officials?
    Mr. Henderson. Sir, I have seen the report about Mr. 
Posner's book. I haven't seen the book itself. I rely on what I 
read about it in Time magazine.
    Turki al-Faisal, currently the ambassador in Britain, was 
previously, until ten days before 9/11, the Saudi intelligence 
chief, that is the head of the Foreign Intelligence Service of 
Saudi Arabia. He was summarily sacked at the end of August 
2001. There are various theories on why he was sacked. There is 
no clear information on why he was sacked.
    It has always been my working assumption that as a liaison, 
as Prince Turki was, between Saudi Arabia and the Taliban in 
Afghanistan, his relations with Osama bin Laden were close, 
even though the Saudis didn't like Osama bin Laden. I have 
always assumed that a money flow was an element of that 
relationship. I am told by foreign intelligence officials that 
that is the primary function of the Saudi Foreign Intelligence 
Service, to pay off problems. Prince Turki al-Faisal, who 
incidentally is a brother of the Saudi Foreign Minister, Saud 
al-Faisal, denies these allegations.
    On the question of other officials, I am aware of the three 
princes whom Mr. Posner mentions. They inconveniently for 
anybody following this up, all happen to be dead. I had not 
previously heard their names in relation to any payoffs of bin 
Laden or of Al-Qaeda. The names that I had heard were more 
senior. None of these three officials, to my understanding, had 
an official government job.
    Senator Feinstein. Is he talking about the three that were 
killed.
    Mr. Henderson. Yes.
    Senator Schumer. That were killed?
    Mr. Henderson. No, no, no, the three which are dead.
    Senator Feinstein. They are dead. Excuse me.
    Mr. Henderson. To the best of my knowledge, the way it was 
reported one died of a heart attack. The second one died when 
he was driving to the funeral of the first because he was 
driving too fast. Both of those stories I find credible. The 
third story is the prince died of thirst in the desert. In the 
Saudi press agency account of it--
    Senator Schumer. Put out there with no water, that might 
have happened.
    Mr. Henderson. No explanation was given, but when you are 
dealing with Saudi Arabia, lack of explanation doesn't 
necessarily mean mystery. It just might mean that they can't be 
bothered to give you more information.
    Senator Schumer. Who are the higher-level officials you 
referred to?
    Mr. Henderson. Well, I understand you are probably 
protected as a Senator by all sorts of privilege. I as an 
individual based in London am not protected by privilege, and 
since I don't have documentary evidence against these 
officials, I would prefer not to mention it in public. For your 
own purposes, I am prepared to tell you afterwards, sir.
    Senator Schumer. Thank you. Thank you, Mr. Chairman.
    Chairman Kyl. I might say that when I pre-interviewed Mr. 
Henderson, he was perfectly willing to share the information. I 
confess that I wasn't familiar enough with our own libel laws 
to know whether witnesses would be protected from libel in that 
circumstance, and therefore perhaps it was better that the 
names not be mentioned publicly.
    Senator Schumer. Thank you, Mr. Chairman.
    Chairman Kyl. Senator Durbin.
    Senator Durbin. Senator Kyl, first, thank you for inviting 
me. I am not a formally a member of your Subcommittee, but you 
were kind enough to invite me to attend.
    Chairman Kyl. And I might say that one reason for that is 
the great interest that you had expressed in this subject in 
previous situations. Of course, you are always welcome.
    Senator Durbin. Allow me to commend you, as well, for 
broaching a subject which is controversial involving the Saudis 
and terrorism.
    I would like to also commend Mr. Epstein because I heard 
his remarks. I am sorry, Mr. Henderson, I wasn't here for your 
own.
    Mr. Epstein, I think you made a very important comment that 
I hope is shared by all who follow this record that President 
Bush is right. Our war on terrorism is not a war against Islam. 
I don't want to mischaracterize your position, but I believe 
you have said that the majority of people who follow this 
religion are peace-loving people, and I think it is important 
for us to keep that front and center in this conversation.
    There are others who have said things which I think are 
inflammatory, and I think they don't really serve our cause 
here. We need to focus on those who are responsible for the 
terrorism, regardless of their religious belief. But it is a 
very serious mistake for us to generalize about people who are 
of the Islamic faith, and thank you for that comment.
    You did say in your statement, though--in your written 
statement, you said ``The radicalization of the Islamic 
political leadership in the United States has developed 
parallel to the radicalization of Islamic leadership worldwide. 
The institutional Muslim leadership in the U.S. mirroring the 
rise of militant Islam has grown increasingly anti-Western and 
anti-U.S.''
    I would hope that if there is a future hearing involving 
this, Mr. Chairman, that other than the CAIR organization, 
which apparently from what I have read is unusual in its 
extreme rhetoric and its association with groups that are 
suspect, there are many mainstream groups of Muslim Americans 
who fully support this war against terrorism and I would hope 
that they would be invited to speak to their heart-felt beliefs 
about this effort so that our characterization is fair across 
the board.
    Mr. Epstein. I think that would be an important hearing, 
too. I agree.
    Senator Durbin. Thank you very much.
    I am going to ask each of you if you have read the Vanity 
Fair piece that recently was published relative to allowing 
Saudis, including members of the bin Laden family, to leave the 
United States at a time when virtually all air flights had been 
shut down after September 11, 2001.
    Are either of you familiar with that piece, and could you 
comment, Mr. Henderson or Mr. Epstein, on that? I don't know if 
you have any personal knowledge as to whether it occurred. It 
appears that we can't find anyone to verify within our 
Government that permission was given, though there are 
eyewitnesses to these planes being loaded with Saudi nationals 
and members of the bin Laden family and allowed to leave 
without any investigation or interrogation.
    Are either of you familiar with this episode?
    Mr. Henderson. I am familiar with the Vanity Fair piece, 
which I read with great interest. I was aware that Saudis were 
leaving the United States and I tackled a friend who is an 
official in the administration on how this was able to happen. 
He said on actually leaving the United States, if you want to 
leave the United States, it is easy enough to leave the United 
States, but he shrugged with a mixture of, I think, less 
ignorance but more desperation that these planes were able to 
fly around the United States, picking up people, and then fly 
out of the United States.
    I am personally shocked and horrified that there appears to 
be no--I am not even sure the people who know or should know 
have a list of who was on those planes, and there was no 
attempt made as far as I can make out to ask the relatives of 
Osama bin Laden ``when did you last hear from your brother, 
cousin, or whoever it was?''
    Senator Durbin. This article also went into Prince Bandar's 
relationship with our Government and the relationship of the 
Carlyle Group, which as I understand it represents the Saudi 
government on Capitol Hill.
    Can either of you comment on the Carlyle Group and what 
role they have played involving Saudi relations with our 
Government in light of our concern about terrorism?
    Mr. Henderson. I think you might be confused between 
Carlyle and Corvis. Carlyle is an investment group to which the 
bin Ladens were investors before--after 9/11, Carlyle got rid 
of its bin Laden investment.
    Senator Durbin. No. The Carlyle Group is a firm which 
involves many highly-elected former officials of our Government 
who are now representing, as I understand it, the Saudis in 
many instances involving issues.
    Mr. Henderson. I didn't realize they were representing--
    Senator Durbin. Are you familiar with this, Mr. Epstein?
    Mr. Epstein. I have seen reports. I am not intimately 
familiar with the Carlyle Group and its activities. I think in 
recent reports I saw, they were also--one troubling thing I 
read was the involvement of the bin Mafoos family. I think that 
what we have seen and it is hard to distinguish between is 
several months ago a letter came out called the Golden Chain, 
which was a list of Al-Qaeda's original financiers. On there 
was a list of names, such as bin Mafoos and al-Raghi and Kamel, 
the largest Saudi families.
    It is also those names that have substantial investments 
and holdings in the United States, and particularly in 
companies that are connected with our Government in one way or 
another, indirectly or directly. So the question is where is it 
known that terrorism financing is taking place? Is it Halid bin 
Mafoos, the head of the family, who is controlling investments, 
or is it someone down the chain? How did the name end up on the 
Golden Chain letter and other instances of terrorism financing?
    Senator Durbin. I won't take any more time of the 
Subcommittee other than to say, as I look into this, as the 
Subcommittee looks into this, what a strange relationship we 
have with Saudi Arabia. Our dependence on their oil has led us 
to, I think, reach conclusions in relation to this Nation we 
wouldn't reach in relation to any other nation when you look at 
the fact that 2 years ago, so many Saudis were involved in this 
attack of 9/11.
    It is also amazing to me the political power of the Saudis 
on Capitol Hill. It is overwhelming in terms of their allies 
and what they are able to accomplish. I think many times our 
Government has greeted suspicious conduct by the Saudis with a 
wink and a nod because of our oil dependence and their strong 
political connections on Capitol Hill, and I think that is an 
element which we cannot ignore if we are truly seeking to get 
to the root causes of terrorism.
    Thank you very much, Mr. Chairman.
    Chairman Kyl. I would like to comment directly on what 
Senator Durbin just said because it is a very profound 
statement, I think, and important for us to take into account 
as we continue our examination and as our Government continues 
to determine how it proceeds in dealing with Saudi Arabia. 
Relations with important foreign countries are frequently very 
complex. They frequently involve a mix of help and hindrance, 
and certainly the Saudi relationship is Exhibit A in that 
regard.
    We have problems in dealing with powerful countries. Our 
old nemesis, Russia, which has been very helpful to us in 
certain respects, continues to be somewhat problematic in other 
respects. But in many ways, the relationship we have now with 
Saudi Arabia is the most perplexing of all.
    I have made this comment before and I want to make it 
again. Saudi Arabia as a country, as a government, has done 
some very important things for and with the United States over 
the years. But because of the factors that we have discussed 
here today, it has also been very--some of its actions have 
been detrimental to our ability to properly fight the war on 
terror.
    It is difficult for our Government to candidly discuss all 
of these things, but I am determined as the Chairman of this 
Subcommittee, and have very much appreciated the very 
bipartisan way in which other members of the Judiciary 
Committee have joined in, to try to, in the same way that we 
make it very clear that we are not in any way questioning the 
Muslim faith or Islam, unveil problems with the Saudi 
government with rich Saudis and problems with some of the 
leadership of the Wahhabi sect here in the United States or 
people who support the Wahhabi sect and the problems that that 
is causing us.
    I think what the Senator from Illinois said is very, very 
important. We have to be sophisticated enough to be able to 
differentiate, to draw these distinctions, to do so fairly, but 
to use our powers here to follow the leads where they take us 
and try to take the action that we need to in order to get the 
most out of the Saudi government in terms of supporting our 
effort in the war on terror, and not be afraid to go into these 
areas even though there may be powerful people on the other 
side and even though some of these distinctions we may have to 
draw very, very carefully because they can result in charges of 
bigotry or cowboyism or however you might want to describe it.
    So I really appreciate the comments the Senator from 
Illinois made, and I want Senator Feinstein to respond and also 
anybody on the panel.
    Senator Feinstein. Mr. Chairman, we called the FBI about 
the Vanity Fair story and about some knowledge about flights 
leaving this country after 9/11. On an unclassified basis, I 
would like to read in the record this statement from the FBI.
    ``During the early days after September 11, the FBI was 
aware that flights containing Saudis were leaving the United 
States to return to Saudi Arabia. Further, with the INS, the 
FBI took appropriate steps to ascertain the identities of 
individuals on the flights that we were aware of,'' end quote. 
Any more than that they would like to have in a classified 
setting, which hopefully we will have shortly.
    Chairman Kyl. Mr. Epstein, you had a comment
    Mr. Epstein. I would like to add to your comment that what 
is very important to isolate and understand where Saudi Arabia 
is funding the extremism in this country and the organizations 
that are attempting to undermine our counterterrorism policy.
    One of the groups which was discussed in my testimony most 
recently has had three of their members and officials arrested 
on terrorism or bank fraud-related charges. One of the 
individuals, Ismail Royer, had traveled to Pakistan and trained 
with a terrorist organization, Lashkar E-Tayyiba, which is 
considered a jihad organization that targets Indians, but it is 
an Al-Qaeda-associated international jihad organization. 
Another one had passed hundreds of thousands of dollars to 
Marzook, Hassan Al-Ashi. Marzook is a Hamas leader and also a 
designated terrorist.
    So in separating out the issues where you have raised that 
Saudi Arabia has helped, it is also important to isolate what 
is going on in the important, where is this money going, who 
are they funding. Are they funding organizations where their 
members and officials are engaged in terrorist-related and 
terrorist support-related activity?
    Chairman Kyl. I also associate myself with the remarks of 
Senator Feinstein, who said that people cannot be on both sides 
of this issue, paraphrasing what the President said that 
countries have to choose which side they are on in this war on 
terror.
    Mr. Henderson, a final comment?
    Mr. Henderson. I would just like to make a clarification 
and an addition to some information on Prince Naif just to make 
the point of how serious not only the implications of your 
question were, but also the answer I gave.
    Prince Naif is number four. Without going into the 
mechanisms of succession in Saudi Arabia too much, he is 
essentially fourth in line to be king. King Fahd is 82 and 
already ailing. Crown Prince Abdullah is 80. Prince Sultan, 
number three, is 79. Prince Naif is a comparatively youthful 
70.
    I think the United States should be aware that within a few 
years, if nothing else happens, Prince Naif might be king. Not 
only will he be king, but he will be king for some time. Given 
the difficulties that we are facing today apparently with 
Prince Naif, I think that is quite an implication.
    Chairman Kyl. I would like to continue this hearing. 
Unfortunately, we all have conflicting schedules that are going 
to require that we adjourn the hearing, but the record is going 
to be kept open for one week. Members will have until 5:00 p.m. 
on Wednesday, September 17, to submit questions, and I have two 
pages of questions that I am going to submit to both of you. 
The first one I will simply tell you and then will appreciate 
your answer on the record, since we do have to adjourn the 
hearing now.
    When the Saudis, including the Saudi princes, make 
contributions to Islamic charities, or even paying off bin 
Laden, I am curious about whose money they are using. Is it 
their own? Is it their family money? Is it government money in 
any way? These are the kinds of things that I think we want to 
complete our record with and I will be very interested in the 
answers that you provide.
    First of all, let me thank both of you again. I very much 
appreciate your traveling from Great Britain, Mr. Henderson, 
and, Mr. Epstein, for your tireless work in this regard. I know 
you put in a great deal of work.
    I thank Senator Feinstein again for all of the work that 
she has provided over the years.
    We will have more hearings on this same subject matter, and 
I appreciate all of you in the audience for your indulgence 
with respect to our schedule here today. Thank you very much.
    This hearing is adjourned.
    [Whereupon, at 1:12 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T3083.001

[GRAPHIC] [TIFF OMITTED] T3083.002

[GRAPHIC] [TIFF OMITTED] T3083.003

[GRAPHIC] [TIFF OMITTED] T3083.004

[GRAPHIC] [TIFF OMITTED] T3083.005

[GRAPHIC] [TIFF OMITTED] T3083.006

[GRAPHIC] [TIFF OMITTED] T3083.007

[GRAPHIC] [TIFF OMITTED] T3083.008

[GRAPHIC] [TIFF OMITTED] T3083.009

[GRAPHIC] [TIFF OMITTED] T3083.010

[GRAPHIC] [TIFF OMITTED] T3083.011

[GRAPHIC] [TIFF OMITTED] T3083.012

[GRAPHIC] [TIFF OMITTED] T3083.013

[GRAPHIC] [TIFF OMITTED] T3083.014

[GRAPHIC] [TIFF OMITTED] T3083.015

[GRAPHIC] [TIFF OMITTED] T3083.016

[GRAPHIC] [TIFF OMITTED] T3083.017

[GRAPHIC] [TIFF OMITTED] T3083.018

[GRAPHIC] [TIFF OMITTED] T3083.019

[GRAPHIC] [TIFF OMITTED] T3083.020

[GRAPHIC] [TIFF OMITTED] T3083.021

[GRAPHIC] [TIFF OMITTED] T3083.022

[GRAPHIC] [TIFF OMITTED] T3083.023

[GRAPHIC] [TIFF OMITTED] T3083.024

[GRAPHIC] [TIFF OMITTED] T3083.025

[GRAPHIC] [TIFF OMITTED] T3083.026

[GRAPHIC] [TIFF OMITTED] T3083.027

[GRAPHIC] [TIFF OMITTED] T3083.028

[GRAPHIC] [TIFF OMITTED] T3083.029

[GRAPHIC] [TIFF OMITTED] T3083.030

[GRAPHIC] [TIFF OMITTED] T3083.031

[GRAPHIC] [TIFF OMITTED] T3083.032

[GRAPHIC] [TIFF OMITTED] T3083.033

[GRAPHIC] [TIFF OMITTED] T3083.034

[GRAPHIC] [TIFF OMITTED] T3083.035

[GRAPHIC] [TIFF OMITTED] T3083.036

[GRAPHIC] [TIFF OMITTED] T3083.037

[GRAPHIC] [TIFF OMITTED] T3083.038

[GRAPHIC] [TIFF OMITTED] T3083.039

[GRAPHIC] [TIFF OMITTED] T3083.040

[GRAPHIC] [TIFF OMITTED] T3083.041

[GRAPHIC] [TIFF OMITTED] T3083.042

[GRAPHIC] [TIFF OMITTED] T3083.043

[GRAPHIC] [TIFF OMITTED] T3083.044

[GRAPHIC] [TIFF OMITTED] T3083.045

[GRAPHIC] [TIFF OMITTED] T3083.046

[GRAPHIC] [TIFF OMITTED] T3083.047

[GRAPHIC] [TIFF OMITTED] T3083.048

[GRAPHIC] [TIFF OMITTED] T3083.049

[GRAPHIC] [TIFF OMITTED] T3083.050

[GRAPHIC] [TIFF OMITTED] T3083.051

[GRAPHIC] [TIFF OMITTED] T3083.052

[GRAPHIC] [TIFF OMITTED] T3083.053

[GRAPHIC] [TIFF OMITTED] T3083.054

[GRAPHIC] [TIFF OMITTED] T3083.055

[GRAPHIC] [TIFF OMITTED] T3083.056

[GRAPHIC] [TIFF OMITTED] T3083.057

[GRAPHIC] [TIFF OMITTED] T3083.058

[GRAPHIC] [TIFF OMITTED] T3083.059

[GRAPHIC] [TIFF OMITTED] T3083.060

[GRAPHIC] [TIFF OMITTED] T3083.061

[GRAPHIC] [TIFF OMITTED] T3083.062

[GRAPHIC] [TIFF OMITTED] T3083.063

[GRAPHIC] [TIFF OMITTED] T3083.064

[GRAPHIC] [TIFF OMITTED] T3083.065

[GRAPHIC] [TIFF OMITTED] T3083.066

[GRAPHIC] [TIFF OMITTED] T3083.067

[GRAPHIC] [TIFF OMITTED] T3083.068

[GRAPHIC] [TIFF OMITTED] T3083.069

[GRAPHIC] [TIFF OMITTED] T3083.070

[GRAPHIC] [TIFF OMITTED] T3083.071

[GRAPHIC] [TIFF OMITTED] T3083.072

[GRAPHIC] [TIFF OMITTED] T3083.073

[GRAPHIC] [TIFF OMITTED] T3083.074

[GRAPHIC] [TIFF OMITTED] T3083.075

[GRAPHIC] [TIFF OMITTED] T3083.076

[GRAPHIC] [TIFF OMITTED] T3083.077

[GRAPHIC] [TIFF OMITTED] T3083.078

[GRAPHIC] [TIFF OMITTED] T3083.079

[GRAPHIC] [TIFF OMITTED] T3083.080

[GRAPHIC] [TIFF OMITTED] T3083.081

[GRAPHIC] [TIFF OMITTED] T3083.082

[GRAPHIC] [TIFF OMITTED] T3083.083

[GRAPHIC] [TIFF OMITTED] T3083.084

[GRAPHIC] [TIFF OMITTED] T3083.085

[GRAPHIC] [TIFF OMITTED] T3083.086

[GRAPHIC] [TIFF OMITTED] T3083.087

[GRAPHIC] [TIFF OMITTED] T3083.088

[GRAPHIC] [TIFF OMITTED] T3083.089

[GRAPHIC] [TIFF OMITTED] T3083.090

[GRAPHIC] [TIFF OMITTED] T3083.091

[GRAPHIC] [TIFF OMITTED] T3083.092

[GRAPHIC] [TIFF OMITTED] T3083.093

[GRAPHIC] [TIFF OMITTED] T3083.094

[GRAPHIC] [TIFF OMITTED] T3083.095

[GRAPHIC] [TIFF OMITTED] T3083.096

[GRAPHIC] [TIFF OMITTED] T3083.097

[GRAPHIC] [TIFF OMITTED] T3083.098

[GRAPHIC] [TIFF OMITTED] T3083.099

[GRAPHIC] [TIFF OMITTED] T3083.100

[GRAPHIC] [TIFF OMITTED] T3083.101

[GRAPHIC] [TIFF OMITTED] T3083.102

[GRAPHIC] [TIFF OMITTED] T3083.103

[GRAPHIC] [TIFF OMITTED] T3083.104

[GRAPHIC] [TIFF OMITTED] T3083.105

[GRAPHIC] [TIFF OMITTED] T3083.106

[GRAPHIC] [TIFF OMITTED] T3083.107

[GRAPHIC] [TIFF OMITTED] T3083.108

[GRAPHIC] [TIFF OMITTED] T3083.109

[GRAPHIC] [TIFF OMITTED] T3083.110

[GRAPHIC] [TIFF OMITTED] T3083.111

[GRAPHIC] [TIFF OMITTED] T3083.112

[GRAPHIC] [TIFF OMITTED] T3083.113

[GRAPHIC] [TIFF OMITTED] T3083.114

[GRAPHIC] [TIFF OMITTED] T3083.115

[GRAPHIC] [TIFF OMITTED] T3083.116

[GRAPHIC] [TIFF OMITTED] T3083.117

[GRAPHIC] [TIFF OMITTED] T3083.118

[GRAPHIC] [TIFF OMITTED] T3083.119

[GRAPHIC] [TIFF OMITTED] T3083.120

[GRAPHIC] [TIFF OMITTED] T3083.121

[GRAPHIC] [TIFF OMITTED] T3083.122

[GRAPHIC] [TIFF OMITTED] T3083.123

[GRAPHIC] [TIFF OMITTED] T3083.124

[GRAPHIC] [TIFF OMITTED] T3083.125

[GRAPHIC] [TIFF OMITTED] T3083.126

[GRAPHIC] [TIFF OMITTED] T3083.127

[GRAPHIC] [TIFF OMITTED] T3083.128

[GRAPHIC] [TIFF OMITTED] T3083.129

[GRAPHIC] [TIFF OMITTED] T3083.130

[GRAPHIC] [TIFF OMITTED] T3083.131

[GRAPHIC] [TIFF OMITTED] T3083.132

[GRAPHIC] [TIFF OMITTED] T3083.133

[GRAPHIC] [TIFF OMITTED] T3083.134

[GRAPHIC] [TIFF OMITTED] T3083.135

[GRAPHIC] [TIFF OMITTED] T3083.138

[GRAPHIC] [TIFF OMITTED] T3083.139

[GRAPHIC] [TIFF OMITTED] T3083.140

                                 <all>

</pre></body></html>
